cm
airV

lb.

IN THE
SUPREME COURT OF THE UNITED-STATES
r\

,-v n ^ p r\ n r\ n

wAiiram.
\ . &jyrr:
vj

laqua maa p

— PETIIJONER

FILED
SEP 2 3 2020

(Your Name)
vs.

C, IrV df HAMt£AM<T, M l

-RESFWi^P^

ON PETITION FOR A WRIT OF CERTIORARI TO

us-

sixth ehi^cuit

douiCT

of atpetals

(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

LAlift a- MAAig SCcrrT
(Your Name)

H-AAJLey
(Address)

HAFITP-AM^IL FH
(City, State, Zip Code)

nla.

(Phone Number)

QUESTION PRESENTED

Does a violation of “choice of law” [retrocession, in 2013] create a
quasi in rem action; which ultimately reverses itself [retrocession, in 2019] to
preclude any relief as to title or equity — despite mutual and explicit comity
[cession, since 2013] — in any forum whatsoever, due to the last of two
federal contracts on the subject property [first since 2007, last in 2019]?
This is in stark contrast to the relief available to some citizens,
pursuant to Rafaeli, LLC, decided on July 17, 2020, Michigan Supreme
Court, to those similarly situated in tax foreclosure, whom — irrespective of
bankruptcy (11 U.S.C.) and despite non-bankruptcy exemptions, granted by
the State and/or 11 U.S.C. alike — had their tax foreclosed properties
auctioned publicly, to provide relief, not available to Petitioner nor properties
not auctioned.

Note- There is an international comity case scheduled to be argued on
December 7, 2020. This Petition might be suited to it, as the domestic version
of comity. See Federal Republic of Germany v. Alan Phillips et al, Case No.
19-351, on this Court’s website.

It

LIST OF PARTIES

[ S^AJl parties appear in the caption of the case on the cover page.
[ ] All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:
vi

n

vc

ft

AflWfrc B slate* c*mcHy te&Jr
^ fUe o%oly pa/'fy te> [°\-IAAO)
(4ooj&V*/) Wiynt* Cour> Hj Tre^surtr'j

m/ity

^ U&'Z.
Diftfi&nV
|

'
related caseslnwr> ba/)rr*U^L «.
I qc[ {#
S ♦ dJ7s3~* G(h>)

- | £1^ O, duppeMtA. 'fr&nn I B-

)n U.S, B^WkrtJLpk^Gou

n- tfqil , -aAvorzao] proce^Ly^ u
w,- $\o%<bDj leW b^nkmp^jc^ih

i Kro) pEonyi hglA~t&d cM&s :

^(?n forecto^

.- ,
\<\~

5-3-Z-ly

PehkvMS' leunej. >>woJ

iw*\jff^^
on

t

reunf**- %j>7k.rrA

H—^03*7 y7-LTevfci<»«
JO^OCOW-M/Syfari

ky
nt

<i^W^
eA/^hey'Ath'bY'^

f-

TABLE OF AUTHORITIES CITED
CASES
Fair Assessment in Real Estate Assn., Inc. v. McNary, 454 U.S. 100 (1981)

10

Hibbs v. Winn, 542 U.S. 88 (2004) cited in Levin............................................

10

Knick v. Township ofScott, Pennsylvania etal U.S. S. Ct. Case 17-647 ..bj. passim
Levin, Tax Commissioner of Ohio v. Commerce Energy, Inc., et al U.S. S. Ct. 09223
Monroe v. Pape, 365 U.S. 167 (1961) cited in other authorities as well

passim

Perfecting Church - In Re-petition by Treasurer of Wayne County For Foreclosure,
Michigan Supreme Court, Case 129341 decided May 23, 2007.................
Pontes — In Re Pontes, 310 F.Supp. 2d 447 (D.R.I. 2004)...... ....................

27

Rafaeli, LLC v. Oakland County, Case 156849 Michigan Supreme Court
(2020)............................................................................................ ................... ./ .passim
Rafaeli, LLCv. Wayne County, No. 14-13958, 2015 WL 3522546 (E.D. Mich. June
2015)............................................................................................ .....................................
STATUTES AND RULES
11 U.S.C (“Bankruptcy Code”) §§522(b)(2&3) coupled with Michigan nonbankruptcy
exemptions as found in Instructions, Bankruptcy Forms for Individuals, U.S.
Bankruptcy Court, December 2015 (Rev. October 2019)
14
Bankruptcy Rule 8003,, Appeal as of Right - How Taken (a)(l) 28 U.S.C. §158(a)(2)
from bankruptcy court to U.S. District Court........................................................... 28
Local Court Rule §9.1(b) in the U.S. District Court Eastern District of Michigan
Michigan Constitution of 1963, Article IV, § 24

passim

Michigan Constitution of 1963, Article III §2...............................

passim

Michigan Constitution of 1963, Article III § 5.............................

.passim

Michigan Compiled Laws §§§§211.78(k)(2)(a'f), (4), (9) and (10)

.passim

Ordinance Amendment, amended December 4, 2013, to City of Hamtramck’s Code
of Ordinance, Chapter 51, §51.026(B) Lien, As provided for the Revenue Bond Act of
1933, chapter 141.2 § 21(3) adding Michigan Act 178 of 1939 chapter 123.162 § 2... 1
OTHER

W-

r

Against Comityby Professor Louise Weinberg, 80 Geo. L. J. 53 (1991)...............

17

Cession* and retrocession (within separation of powers Michigan Constitution.
Article III § 2) either adding an object to a statute not in its title (in violation of the
Michigan Constitution, Article IV § 24) or in submitting to the federal or otherwise
explicit mutual comity* with another, such as a federal bankruptcy court or
intergovernmental agreement (under the Michigan Constitution, Article III § 5). ...1
Choice ofLaw- Current Doctrine and “True Rules”' No Mr. Justice Traynor, “This
Conflict IS Not Really Necessary. But...” by Albert A. Ehrensweig, California law
Review, Vol. 49, No. 2 (May 1961), pp. 240-253 (14 pagesO DOL 10.2307/3478572
Available at10, .passim.
httpsV/www jstor.org/stable/3478572
International comity pending in this Court is Federal Republic of Germany v. Alan
Phillips et al Case 19-351 Petition set for Argument December 7, 2020 Available at: 1 *
httpsV/www.scotusblog.com/case-files/cases/federal-republic-of-germany-v-philipp/ j I
Jacob A. Sommer, Business Litigation and Cyberspace: Will Cyber Courts Prove an
Effective Tool for Luring High-Tech Business into Forum States?, 56, Vanderbilt
Law Review 561 (2019) Available at'https://scholarship.law.vanderbilt.edu/vlr/vol56/iss2/3..........................................
Leathers, John R. (1977) "Substantive Due Process Controls of Quasi in Rem
Jurisdiction," Kentucky Law Journal Vol. 66 : Iss. 1,
Article 3.
Available at: https://uknowledge.ukv.edu/kli/vol66/issl/3.....................................

it

Michigan Constitution cited in Property tax hole spurs Proposal A reform push, by
Jonathan Oosting, The Detroit news, published 12:01 a.m. ET March 4, 2019
Peter Ward, Tort Cause ofAction, 42 Cornell L. Rev. 28 (1956) Available at'httpV/scholarship. Law.cornell.edu/clr/vol42/iss 1/3
Sacramento Daily Union, Volume 45, Number 6954, 18 July 1873 citing Pitte v.
Shipley [3,304] regarding using a word repeatedly.....................................................
Nina A. Mendelson, Change, Creation, and Unpredictability in Statutory
Interpretation: Interpretive Canon Use in the Roberts Court's First Decade, 117
MICH. L. REV. 71 (2018). Available at: https-//
https://repository.law.umich.edu/mlr/volll7/issl/3/2A Sutherland Statutory
Construction, §47:23, p. 155, omission or use of a word.............................................

v.

)3

TABLE OF CONTENTS
Page
I.
II.
III.
IV.
V.
VI.

OPINIONS BELOW............................................................. ....................
JURISDICTION........................................................................................
CONSTUTIONAL AND STATUTORY PROVISIONS............. ............
STATEMENT OF THE CASE & RELEVANT RECORD CITATIONS
REASONS FOR GRANTING THE PETITION.....................................
CONCLUSION...........................................................................................

1
2
3

4
10
30

INDEX TO APPENDICES
APPENDIX A - Case No. 19-1290 appealed Order, dated April 28, 2020
APPENDIX B — Case No. 19-1290 motion Order, dated March 20, 2020
APPENDIX C - COVID-19 U.S. S. Ct. Order, dated March 19, 2020
APPENDIX D - COVID-19 U.S. S. Ct. Order, dated April 15, 2020
APPENDIX E - Case 17-4411 Opinion & Order, dated August 14, 2017
APPENDIX F — Case 16-007539-CH Transcripts, dated March 22, 2017
APPENDIX G - Template for Michigan Compiled Laws §211.78(k)(2)(a-f) mailing
leading to APPENDIX F (see also APPENDIX O for the statute
particulars, since APPENDIX G leaves out the section “2” of it.
APPENDIX H — Case 18-006771-CH, dated March 28, 2019 on same parcel as
APPENDICES F & G two years earlier
APPENDIX I — Case No. 348565, Order, dated May 24, 2019 to the part of the
section 7 of the statute in APPENDIX O in violation of 11 U.S.C.
APPENDIX J — Michigan Constitution of 1963, Article III § 2
APPENDIX K — Michigan Constitution of 1963, Article III § 5
APPENDIX L — Michigan Constitution of 1963, Article IV § 24
APPENDIX M — “comity defense” in its respondent’s question presented in pending
Case No. 19-351 before this Court
APPENDIX N — 11 U.S.C. § 524 Effect of Discharge on May 31, 2017 (permanent);
additional relevant portions to it §§§524(a)(l,2 & 3) and
§524(g)(4)(a) “third parties” as to quasi in rem actions
APPENDIX O - Michigan Compiled Laws, specifically §§§211.78(k)(4, 9 & 10)
APPENDIX P — Bill of Rights in the U.S. Constitution to with Petition’s other
Authorities that cite also

Vi

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW
IVif/Por cases from federal courts:
The opinion of the United States court of appeals appears at Appendix
the petition and is

A_to

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
M is unpublished.
The opinion of the United States district court appears at Appendix
the petition and is

to

; or,
[ ] reported at
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
[ ] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix_____ to the petition and is
; or,
[ ] reported at
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the_________________________
appears at Appendix_____ to the petition and is
[ ] reported at_____________ _______________
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
1.

court

JURISDICTION

wfFor cases from federal courts:
The date on which the United States Court of Appeals decided mv case
*
was Apn i
[*^No petition for rehearing was timely filed in my case.

(dU>e.U CoviQ-iy

[ ] A timely petition for rehearing was denied by the United States Court of
Appeals on the following date:____________
, and a copy of the
order denying rehearing appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including_______
(date) on
(date)
in Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

see. ■this. Court's OfAer 5%<\ O.S/ThuncUM; March

IS

(wi°

<sr>pi to be- Ji'UA. (Appendices C anA D )

[ ] For eases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix_______
[ ] A timely petition for rehearing was thereafter denied on the following date:
______________________ , and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including____
(date) in
(date) on
Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

z

III. CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
1.

United States Constitution, Amendment XTV, Section 1.
“All persons born or naturalized in the United States, and
subject to the jurisdiction thereof, are citizens of the
United States and of the state wherein they reside. No
state shall make or enforce any law which shall abridge
the privileges or immunities of citizens of the United
States; nor shall any state deprive any person of life,
liberty, or property, without due process of law; nor deny
to any person within its jurisdiction the equal protection
of the laws.”

To coordinate with the Fifth Amendment in APPENDIX Pi
2.
3.

4.
5.
6.

See APPENDIX P, The Bill Of Rights, including the Fifth
Amendment;
See APPENDIX J: Michigan Constitution of 1963 with above;
See APPENDIX K: Michigan Constitution of 1963 with above;
See APPENDIX L; Michigan Constitution of 1963 with above;
See APPENDIX N: “fresh start” after bankruptcy.

STATUTORY PROVISIONS:
7.
8.

9.
10.

See APPENDIX N for relevant portions of 11 U.S.C., the
“Bankruptcy Code”
See APPENDIX 0 in explicit mutual comity with 11 U.S.C.
See APPENDIX F regarding procedural and substantive due
process and APPENDIX O, if it did not happen.
See APPENDIX I which cites §7 in APPENDIX O as a form of
personal debt collection post discharge in APPENDIX N.

Notes:
The other statutes cited in Petitioner’s case authorities are not the main focus of
this Petition. Rather, they merely provide context for the tradition use of comity
outside bankruptcy. The focus is on cooperative comity, not its preclusive antithesis.
Two recent landmark cases cited discuss the statutes in them. Knick enjoins all of
the Bill of Rights for 42 U.S.C. §1983. That relates to the invasion by the
Respondent on August 29, 2019, which is not part of this case, per se. However,
Rafaeli, LAC'was decided July 17, 2020, too late. 19-12676 was decided two weeks
beforehand. The question presented addresses statutes in the abstract, but remain
unapplied (or not applied correctly) by the judiciary since 2016 - or at all.

3

IV.
A.

STATEMENT OF THE CASE

First Retrocession by Governor’s Emergency Financial Manager
In 2013, the first retrocession was by the Respondent city:1
State of Michigan, County of Wayne, City of Hamtramck,
Amendment to City of Hamtramck’s Code of Ordinance
Chapter 51 to provide for Meter Reading, Delinquent Bills
and Liens... Section 3...Section 51.026 (B) Lien:
Assessment is amended to read as follows: As provided
for in the Revenue Bond Act 94 of 1933, chapter 141.12
sec 21 (3), All those charges delinquent for 6 months or
more, may be certified annually...services have been
rendered... who shall enter a Hen... enforcement of
lien...the City of Hamtramck reserves the right to certify
delinquent properties to the County to preserve the city’s
lien rights in accordance with the State and County tax
laws regarding foreclosure requirements. Unpaid charges
shall be a personal debt to the City of Hamtramck. The
City reserves the right to collect unpaid charges through
Michigan’s Act 178 of 1939 chapter 123.162 sec. 2...

By 2016, the cession to remedy it was mooted.2 The 2013 quasi in
rem debt was split into two separate jurisdictions.3 The three-year lag,
mandated by Michigan statute, made December 2016 ripe to adjudicate
both (rooted in fraud) through foreclosure objections and bankruptcy.4
l

Retrocession #1 was an ordinance amendment in December 2013 by
Respondent’s Governor -appointed Emergency Financial Manager from the
executive branch - not a legislator. The amendment violated the “choice of law” as
pursuant to Appendix J, in violating the one-object-per-statute bar, as well as
Appendix L, separation of powers. Also, the service stopped permanently before the
amendment; unappealable unless paid and not delinquent, in contrast to
§211.78(k)(2) saying the opposite (“unpaid” and “delinquent”) to preserve rights to
object, in Appendix O. Certification continued through the bankruptcy, in 2017.
2
Cession for the purposes of this Petition was Michigan Compiled Laws and
also 11 U.S.C. See appendices: O, §211.78(k)(4 & 9), with F, Transcripts, and G & O
§211.78(k)(2)(a-0. Together these are explicit mutual comity.
3
What was merely in rem debt prior to December 2013, was augmented to
include in personam debt. These together became quasi in rem debt.
4
Michigan Compiled Laws require that the hen be objected to, on the third
year of the certification (by the city to the county). See Appendices G and O §2.
Respondent city actually certified every six months. The Respondent was

4

Although cession seemed to control in early 2017, it turned futile.5 In
reality, the explicit mutual comity (cession) was ignored by the county
treasurer during both stays.6 On August 7, 2017, it was revealed that
the hidden foreclosure in March, plus that it was headed for public
auction the following months - either September or October.7 But,
afterwards it was quickly reversed. Instead of what was required (writ
of error) the county used the fungible compact discs at the court, rather
than any written submissions to the clerk of the court, thus concealing
the reversal.8 The opposite court procedure was required of those who
objected, to file written objections and more.9
B.

Second Retrocession, now by the county

Despite skipping 2018, it once again foreclosed in 2019 well
beyond the statute of limitations.10 Then in 2019, the appeal was
blocked — in violation of the federal bankruptcy’s permanent discharge

immediately paid when it certified. Petitioner’s bankruptcy petition was filed
December 19, 2016 to address the personal debt component, etc.
5
Transcripts March 22, 2017 shows explicit mutual comity by the judiciary in
addition to the legislature to the bankruptcy court. See Appendix O, §§ 4 & 9. But
Appendix E shows it happened anyway in complete contradiction to Appendix F.
6
See Appendices F (one year) and O for Michigan stay §211.78(k)(4) no later
one year, by March 31, 2018, plus 11 U.S.C. federal stay from December 19, 2016 to
May 31, 2017.
7
Appendix E accepted the county treasurer’s statements, without evidence as
fact, and restated it in its Opinion August 14, 2017. The county treasurer was not a
party to the case. He had no standing to state anything of material facts to the
bankruptcy referee on August 7, 2017.
8
Appendix H, page 2, part a., “CD” meaning compact disk, where no hardcopy
is on file with the clerk of the circuit court. It is a fungible record which grows and
shrinks at will, managed by the by the county legal team, not the court’s clerk. See
also Appendix O, §10.
9
Appendix G template, fists what is required of the person fifing a written
objection but it did not do the same. Plus, it leaves out §211.78(k)(2) so that the
words “unpaid” and “delinquent” do not appear on the postcard mailed to the person
objecting, prior to the hearing in March, annually.
10
Appendices H and I. The one year limitation ended March 2018 based on
Appendices F & O §4. It could not foreclose beyond March 2017, redundantly either.

S'

injunction beginning May 31, 2017 - which took the form of a “bond”
requirement.11
C.

Third Retrocession... by the City, again

Lastly, by July, 2019, during 19-1290, un-mandated Respondent,
acquired the property without auction12 Using the same money it
previously certified, it bought paid only about $4,000 by contract. This
was based upon a federal contract. Petitioner was both opposing counsel
and the opposing party. It was more serious than would have been
outside pending litigation.13 But, next month was an invasion by same.
D.

Retrocession obsession by August 29, 2019

In its simplest form, the executive branch of government began
with 2013 retrocession and ended with Monroe v. Pape worthy
entitlement invasion in 2019.14 But it did not end well. The continuum
of deprivation of rights is best shown with two recent landmark cases,
discussed later in this Petition.15 Knick cited Monroe as did others.

Appendix N, which bars statute and rule cited in Appendix I. See Appendix O
§9 with Appendix P (due process) and the fact that Appendix E is a judicial fact that
it had already happened in March 2017. Petitioner has an audio of that hearing if
allowed to submit it to this Court, if this Petition is granted, if useful to hear his
facts and law.
12
Case 19-12676 has that evidence and the federal contract is a Department of
Housing and Urban Development Neighborhood Stabilization Program contract.
NSP contract has since expired. It was never executed by the city contractor that
invaded August 29, 2019. Its purpose seems solely to have invaded and sold as
quickly as possible. See Appendix K for Intergovernmental Agreements (mutual
explicit comity) built into the Michigan Constitution.
13
Case 19-12676 was based upon the invasion August 29, 2019. Respondent
was on the recorded deed on that date. Invasion is not a form of debt collection or
tax collection.
14
Actually in 2007 the first federal contract was federally backed but the
county interfered in that contract although not a party to it. Then the second federal
contract in 2019 led to the invasion on August 29, 2019. The second contract
harmed the first one.
15
Knick v. Township ofScott, Pennsylvania (a local ordinance) and Rafaeli LLC
v. Oakland County (gives different relief depending on public auction).
li

6?

Petitioner remained home. COVID-1916 has not only helped to
make that possible, it illuminates the context for this Petition not
possible before the pandemic. It gives it both a national and
international17 context, in certain respects. A new phrase “super
spreader” describes what happened with this debt over time. The
outrageous level of entitlement that the Respondent had continued into
the Record on appeal as well as the non-Record as described.
THE RECORD BELOW
By any Tax Injunction Act measure, rooted in comity, this was no
“rocket docket”18 since 2016, where Petitioner sought to get relief for not
only duplicative classification of a single debt, but fraud and other
matters as well. It stemmed from mass water shutoffs in Petitioners
city, and others around the country as well. A new “sheriff in town” in
the name of an Emergency Financial Manager appointed by the
Michigan executive branch, cited above amended a local ordinance
(used as an exhibit in a motion in the bankruptcy court on March 22,
2017 as well as an exhibit at trial on September 20, 2018) made clear
that the “checks and balances” inherent in the Constitutions of both this
country as well as the State of Michigan were null and void.
The executive branch continued to control the other two branches
throughout the past several years of litigation. In the end the executive
branch won. The appealed order in Appendix A is evident that the
appellate briefs were not read and/or that the Record below it was
ignored. For instance, while it correctly states that the Fourteenth
Amendment was at issue (see A, p. 2, f l) it called the trial with about
200 pages of transcripts an “evidentiary hearing” as if there were not
laws cited in the opening statements by Petitioner; as if there were not
exhibits submitted by Petitioner; as if there was not under-oath
testimony that corroborated the Petitioner’s assertions.
Besides, there are two other points lost in the Order appealed- l)
the Respondent admitted that it ended service in November 2013 in
See also Appendices C & D COVID-19 affected everyone everywhere in ways
unimaginable a year ago.
17
Appendix M “comity defense” is an international comity case to be argued in
December 2020 in this Court.
18
See Sommer article uses “rocket docket” to describe the speed in cyber courts.
16

n

order to get to mediation mid-2018 after it defaulted. 2) The Respondent
and the trial referee failed to understand that the debt was both
discharged and was not still due, thus granting an award that was not
correctly remedied as ordered on Spetember 20, 2018 at the trial.
The “good faith” standard to prevent appeal was yet another
Fourteenth Amendment violation by blocking the appeal based on
demands for money, knowing Petitioner could not pay it, similar to
Appendix I.
There seems to be another thing lost on the Order
appealed in that it was the fourth layer of litigation (16-5560 to 17-4411
to 18-13096 to 19-1290 to this Court) on the same debt that would
normally be a second layer, if it began in the district court to begin with.
This made the comment “not raised before the bankruptcy court” (f2)
incorrect on its face, because she could not raise the appeal fee issue
after the trial. All Petitioner could do is to appeal the trial. Then after
the Notice of Appeal and the case 18-13096 (Orders 10, 11, but 15 which
was filed by the district court after the appellate brief was filed in 191290 at the Sixth Circuit so it had to be mentioned in the Reply brief
instead) was assigned, appeal the fee in briefs during 19*1290, instead
of directly appealing the trial. Petitioner could not backtrack to pre­
appeal status to affect any change in the bankruptcy court once 1913096 began across the street from the bankruptcy court.
The appealed Order adds another Catch-22 by “raised in the
bankruptcy court but were not raised in her appellate brief’ (f2) which
is also incorrect on its face. The entire record on appeal, including the
trial transcripts as well as the main bankruptcy (16-56880) and the
adversary proceeding (17-4411) — which the court does not normally
allow to be combined but is an exception in bankruptcy cases — was sent
in its entirety to the district court. But, once there, was summarily
dismissed without a hearing or a briefing schedule; such that it was
never allowed to be addressed, other than to appeal the motion to
dismiss and the certification by the trial referee. There was no
opportunity to address that prior to the Sixth Circuit case. The
additional layers of appeal seem to have created confusion on the part of
the last appellate court. The appellate briefs filed by Petitioner cited the
record below by page and its appendices provided an index to the record
to ensure there was no confusion.

In sum, the Order appealed just restated the erroneous
statements of the same lawyer from August 7, 2017 and the
Respondent’s motions to dismiss without any citation to the record as to
the trial. In conclusion as to the Record, the Petitioner made every
effort to do what needed to be done to preserve her issues for appeal,
before trial, during trial and after trial. There was no lack of evidence to
support her or law to support her position at any point.
Comity was the main basis for the result. It was a go-ask*your
mother-go-ask-your-father back and forth between the federal and state
courts, to the dizziness of anyone less able than Petitioner to withstand
it for seven years. Perhaps a citizen that could not speak English, or
someone who is easily tricked by the literal forms, rather than the
contradictions in the law and rules behind them, which lawyers can
navigate easily, might be such an example.19
The summary above gives a general overview of the terminology
that is relevant. Basically, the Respondent used the subject property as
an ATM that ended in invasion during 19-1290. It was a desperate
effort to remove her from litigation - physically. This goes beyond the
Fourteenth Amendment at this juncture (see Appendix P).
THEREFORE, all this was not Petitioners own doing. She certainly
tried to reason with all since 2013 to no avail. It is not reasonable to
review the Order appealed de novo with the entire Record on appeal, to
see the manifest injustice; in light of the recent two landmark case
which undergird this Petition with good cause for review? Petitioner
says it does.
While this Petition attempts to avoid all the particulars that
would be in a merit brief, if granted, this case is somewhat complicated
by the additional layers of litigation than would otherwise lead to
brevity. Please forgive the Petitioner’s effort to add clarity if brevity
suffers somewhat. Once this COVID-19 relief ends, many will be
homeless unless something is done about this disparity in justice.
19 This is typical in the City of Hamtramck with 40 languages spoken there
and a long sordid history with eminent domain and other similar cases, still being
litigated for decades, thus becoming a template in this Petition for why this Court
should review it as a poster-child for such defiance to be an example.

7

V.
A.

REASONS FOR GRANTING THE PETITION

UNFINISHED BUSINESS IN PREVIOUS/PENDING CASES

1. Another international case is pending in this Court on comity and
perhaps the two can be decided together as this Petition is the
domestic counterpart to the same issue (See Appendix M).
2. Recent landmark cases in this Court and in the Michigan
Supreme Court are in need of completion because the federal
contracts add to an equity disparity compared to those whose
property is publicly auctioned. In the federal case was cited
Monroe, which is relevant to the invasion August 29, 2019.
3. Monroe was also cited in Levin, another case in this Court. The
importance of that was its and the one in #2 above both citing Fair
Assessment And it also cited Hibbs which is not unlike the thirdparty standing that a property owner has in an in rem case of
foreclosure.
4. When “choice of law” is required, but the government chooses both
— thus not making a choice — specifically by retrocession which
adds a second object to a current statute or ordinance by
amendment, it sets a chain reaction of events. It is akin to a
COVID-19 “super spreader” which results in endless litigation for
naught. More precisely, the federal stake in this is evident in that
it provides the funding and quota that incentivizes the unlawful
conduct. But even more precisely, the very exemptions in
bankruptcy are at risk under such schemes because the check-box
system forces the Debtor to choose what the government refuses to
choose for them, (see appendices and quote related to Footnote l)
5. In effect, quasi in rem causes of action in some States circumvent,
personal jurisdiction and in Michigan splice an extra personal
jurisdiction component to the otherwise in rem debt. Often, this
results in lack of due process (Appendices P plus the Fourteenth
Amendment to the U.S. Constitution, but in others it makes

to

follows the Debtor beyond the bankruptcy as the Record shows in
19-1290. (see Appendices H, I, A, B, due to E and other tactics)
6. Both the Michigan Constitution and the U.S. Constitution are
crystal clear that such in rem and in personam debts are not only
different objects that are different statutes, but that quasi in rem
is an indirect assertion of jurisdiction in both the person and the
property using retrocession by the executive branch to accomplish
it. It is “double taxation.”
There are more reasons, but the above six get to the crux of it. To
put it plainly, it is time to revisit comity for both national and
international reasons. While this Petitioner never got a “fresh start” in
her bankruptcy, she is not alone. There is an increase in federal
contracts since 2008’s Great Recession which are related to not only
foreclosures, invasions and evictions, but some have attempted to
pursue more serious charges (“R.I.C.O.” for instance). All were blocked
by principles comity (ignoring Monroe doctrine since 1961, in some
cases) and other similar laws that are not actually correct in light of
recent cases.
There is unfinished business in the realm of exemptions, equity
and the way equity and exemptions are mathematically calculated
under the law for relief that sheds light on flaws in the bankruptcy
forms, law and due process meaning and application. The takeaway is
relevant to the Sixth Circuit’s dilemma in the dust of its opinion; the
misguided concern about Monroe cited in Fair Assessment (1981) was in
the long run dwarfed by the litigation to the local municipality if not
setting new precedent consistent with ensuring lawful behavior such as
Knick described was the point of ignoring precedent and reverting back
to the U. S. Constitution itself. Hamtramck is the perfect vehicle to set
it.
The bankruptcy court functions three levels below this one. Its “core
proceedings” in adversary proceedings in particular are the context
from which this Petition sees the problem in need of review in this
Court.

il

STANDARD OF REVIEW AS A VEHICLE FOR NEW PRECEDENT
The de novo review in the Order appealed does not appear to have
happened. Therefore, this Court, for reasons stated and the recent two
landmark cases that unite the U.S. Supreme Court with the Michigan
Supreme Court to set new precedent that the other courts — and more
importantly all three branches of government will heed — for the costbenefit reasons to forgo the “fruit from the poisonous tree” to prevent
litigation in perpetuity. While Fair Assessment cites Monroe, so does
Knick, but for different reasons that make this same that Petitioner
puts forth.
Prevention through new precedent dissuading the “forbidden
fruit” more clearly whether it is poisonous or not, that process is as
important as the ultimate effect of the choice of law. The poisonous lowhanging fruit to be attractive to the executive branch. It is incentivized
with federal funding to ignoring the legislative branch in retrocession
and later blocking the judiciary on the basis of comity rather than
applying the cession relief available before the poison kills the chance to
do it (See Appendix O §10). In the long run, it costs them more than the
fruit because it is poisonous in expensive litigation, where Fair
Assessment viewed it as the short-term loss of tax revenue. In other
words, the taxpayers are doubly “taxed” in expensive litigation whereas
justice for a single taxpayer harms them little in preventing future
litigation altogether. Petitioner is personally harmed by this but her
experience can be a vehicle to prevent others from the same fate.
Another petition was granted on comity to be argued December 7
in this Court (see Appendix M with its respondent citing a “comity
defense” which is similar to an affirmative defense given Appendix M
§ 9) this term and it provides an international perspective. Petition
provides an domestic perspective. Perhaps it can be decided together or
atleast in some way be connectred to an overall new precedent that
addresses the 2020 new “normal” that COVID-19 has made so apparent.
Appendices, Authorities, and the Record alike show that comity is
misused in both spheres at once. See Delaware and other examples
below as well.

u

WHY WORDS MATTER: WHY A SINGLE WORD MATTERS MORE
Besides retrocession and cession, evidence that the system, as it
is, not navigation, is the core problem. Take this for example in the
perilous path through the courts thus far and how a pro se faces20 as the
paragraph leading up to the one that follows in the cited source lists a
multitude of meanings discussed later to the Record. It depends on the
particular stage of the litigation, etc. :
Courts have vacillated in defining a “cause of
action,” some taking the view that it was the nexus of all
those facts that must be proved to enable the plaintiff to
recover! others, that it is only in the interest - or “right” for whose invasion the plaintiff seeks redress.49

The two halves of the above quote (“Hand”) are revisited later in
this Petition to show how they are enjoined in what happened on
August 29, 2019 during the appealed case. While the 2013 (see Trial
Transcripts on September 20, 2018) was the first of many Fourteenth
Amendment issues in a continuum of takings followed since the
appealed case (19*1290) was filed and through it as well.
Or, the motions to dismiss21 that used contradiction as a way to
somehow make their position valid, when it is invalid. To paraphrase a
legal adage22, the Respondents have put an exclamation point on
virtually every sentence (so there!), where neither relevant law nor
correct facts were submitted to the courts. But on appeal have since put
a question mark after each sentence, to deflect from the contradictions
(we did what, when?).

20 Citing Judge Learned Hand, page 43 citing Burns v. The Central R.R., 202 F.2d
910, 911 (2d Cir. 1953), Peter Ward, Tort Cause ofAction, 42 Cornell L. Rev. 28
(1956), Available at: http://scholarship.law.cornell.edu/clr/vol42/iss 1/3
21 Ibid. Hand: “...It may mean one thing when the question is whether it is good
upon demurrer...”
22 From an unknown author, the adage goes: if you have the facts, pound them! if
you have the law, pound it! If you have neither, pound the table. Hence, “!” and “?”

13

What are the four wheels (la, lb, 2a, 2b) making this case a
vehicle to resolve the question presented? The compelling reason is two­
fold:
1) Dual classification of a single quasi in rem debt renders
impossible the relief in either bankruptcy or in foreclosure court.
a) in personam debt in bankruptcy
b) in rem in foreclosure
2) This case is undergirded with recent landmark cases. Both show
some improvement, but not enough in the equity stemming from
exemptions in bankruptcy.
a) Knick v. Township ofScott, Pennsylvania
b) Rafaeli, LLC v. Oakland County was previously dismissed in
federal court but it is distinguishable from Petitioner in terms
of relief available to him and others like him.
BANKRUPTCTY CODE AND FORMS REVIEWED: WORDS MATTER
Then there is choosing the correct word in check-box system of
litigation in bankruptcy court, especially with its forms. Colloquial
language as to the status quo is evident in the Record. None of the
judges understood the paradox created by dual debt classification:
1) e.g. “secured” or “unsecured” in federal court;
2) “lien” or “personal debt” in state court;
3) when in reality it is in rem and in personam in terms of a cause of
action;
4) see Hand quote above, in Ward source.
5) Pontes as an exception to TIA in bankruptcy and in need of
precedent.
As such, they misunderstood how it was a “state of
unconstitutional condition.” In other words, a quid pro quo was made to
get payment to appeal without relinquishing rights firsthand (see Hand
quote, and appendices H & N). This pay-first-to-appeal was preceded by
don’t pay-first-to-object for one main reason until the Tax Injunction Act
(see Fair Assessment). To get the right to object you must not pay. In
this half, the one objecting could not go to federal court first. But once
the foreclosure was granted, and knowing it crossed that threshold, it

H

But in the case of a “secured” debt, that would be a double
payment, at minimum (double taxation). This is in addition to the
“unsecured” debt addressed in the bankruptcy court, on the same debt potentially treble taxation.
This creates a unique situation. By hypothetically paying the debt
in both state and federal court, plus the hens on the property itself
(foreclosure), it would ultimately result in one losing the property,
losing the payment on the tax to the county (as happened to Rafaeli),
plus then again in bankruptcy losing that same money again in
payment to the city. Even an unsuccessful appeal in state court would
result in 100% payment being kept with the property. Why both?
Rhetorical question given the Petition’s other paragraphs. Even some
who entered in to payment plans lost their property and the money
because of the made-up caveat that it waived their right to the
foreclosure that the payment plan was trying to prevent and that they
were current in terms of paying. Fraud. Plain and simple.
The city was paid by the county - not by Petitioner - long before
the bankruptcy and the foreclosure, every six months since 2013. This
rises to quadruple payment of the same debt if paid thrice in the courts
based on this potential system.
Finally, is the “hazard insurance” in which the county can sue the
insurance company after the foreclosure, in addition to the city paying
it back the money it got since 2013 on the fraud in 2019 (about $4,000).
There is layer upon layer of debt that replicates in redundancy in
perpetuity enjoining the federal government in its scheme. The county’s
role in this since the first federal mortgage in 2007 was constant
interference that continued through the bankruptcy and the appealed
case. Not a party to the contact. Not a party to the case. Not consistent
in its statements to the courts. Not a small thing in the Hand quote
sense of things.
Petitioner thinks it is now evident that any status quo
assumptions about taxes are misnomers, at best. This is not what was
actually happening. So the principle amount of the debt is not the whole
story. It was the lack of the property that the debt was based upon, first
and foremost.

\S

flipped to the second half by forcing a “bond” to appeal (See Appendix I).
It was required to not pay (See Appendix N §2).
In fact the forfeiture itself was merely a cause of action rather
than vesting the title in the county (see Hand quote above and Rafaeli
decided in 2020 in more detail makes this point in comparing the civil
versus criminal forefeiture in terms of equity theft by government).
Courts consider payment of disputed amount tantamount to an
admission the debt was owed. In Rafaeli, LLC it was only $8.41 and he
lost the rest of his money and the property both.
But like the Leather’s Delaware example he was out of state and
the seizure did happen when he was not provided notice of the show
cause hearing. In that sense it shows that his being in California and
being a business investment might relate to Hibbs in Levin as well.
Noteworthy at this juncture is that the ultimate reason for the
prohibition on payment and that was to make the sale price and the
debt the same amount so there was no equity in the end. See Rafaeli,
LLC for context. Unlike most, there was a great difference only because
he paid virtually all he owed. But that was risky as he endured about
seven years of litigation in both state and federal court that should
never have happened. See also Appendix 0 § 2 compared to opposite in
H.
Once you get past the first cause of action it gets beside the point
of the petition at hand. It does not just affect the poor (see Hand above).
Rafaeli proves the wealthy are better equipped to fight over it. The
injustice is apparent whether you pay or don’t pay, the federal funds
incentivize mass foreclosure, whether your property is auctioned or not.
Some of this was not abundantly known before Knick and Rafaeli LLC
were decided but are provided to give context to this Petition. In sum,
there is unfinished business for this Court in Knick. Also, relief in
federal court that is not available in Michigan due to the federal
contracts that circumvent the public auction as well as the statutory
formula that determines the value of the property as 50% is the sale
value for the federal matching funds. This makes the approximate
$4,000 contracted value a way to attract developers but it also gets
much more from the federal government than $2,000. Fuzzy math,
basically.

) ip

A critical distinction between two commonly converged status quo
assumptions which are not true is the “nexus” in the Hand quote above
with its second half of that quote as one. By this Petitioner means that
it'offers two choices. In the Petition, once again there were both chosen
at once in that Petitioner by August 29, 2019 during 19-1290 had the
second meaning of the cause of action meaning literally and figuratively
due to to the un-mandated illegal actions by the Respondents in this
case which resulted in a separate federal case that was separate in only
the third-party contracted to do the invasion under the auspice of a
second federal contract.
It brings precision the legal point Petitioner makes by zeroing in
on the ultimate effect of the Respondents’ concerted actions, as being
one of years of limbo culminating in an invasion — a tort August 29,
2019 - which is discussed in Knickbelow, (see Ward, and Weinberg)

J7

HOW IT GOES FULL CIRCLE BACK TO THE SAME RESPONDENT
If the municipal state actors did not choose to do anything in 2019
that would have wise. It would not have gotten them off the hook for the
harm caused by not only the takings since 2013 but also the reliance on
Respondents did in controlling the courts with contradictions and
falsities that each wears as a badge of honor. It is important to
understand that omissions and lack of action also play a role in this as
well. No oath, law or mandate prompted actions during mid-2019
during litigation now appealed. So that choice was of its own volition. It
could have left all that prior decisions behind it and moved on in the
pending litigation unabated by new causes of action that enjoin
virtually of Hand’s examples in the Ward article at once (see 19-12676
filed on September 11, 2019, after the invasion. There are about 107
docket items in that alone and over 1,000 pages of evidence, law, and so
forth to show that this is not the end of the Constitutional deprivations
that continue to this day but are independent of the appeal at issue
because it happened after the briefing was completed). No wonder why
comity is the focus of the Question Presented. It is because it is too
ethereal at this juncture to give safe harbor to those that need relief in
federal courts.
There is no relief in state courts for most. And the least able to
pay or understand the law are most harmed by its foggy application to
lower courts that fall back on old cases that are not only distinguishable
but embolden the perpetrators in various municipalities such that an
$8.41 case made it all the way the Michigan Supreme Court to get half
way to a remedy for all. In dissent in that opinion one judge pondered
the situation such as the Petitioner provides as a vehicle to understand
it. He envisioned two problems'
1. The property owner has no public auction to determine the
excess equity that is addressed in explicit mutual comity or in
the check boxes above dealing with exemptions.
2. The county manipulates the sale price so low that it could sell it
for $8.41 just to satisfy the debt.

is

MICHIGAN CONSTITION OF 1963 ADDS BASIS FOR REVIEW
The federal contract, in combination with what is known as the
Right of First Refusal (Record filed as an exhibit in the Response to
Appendix B’s motion to dismiss that was denied) as a retrocession that
is actually approved by the Michigan legislature. However, it, in
combination with the federal contract is a still a cession under
Appendix K, where it is not exactly compliant with Appendix J, but is
compliant with Appendix L, as far as the Michigan Constitution of 1963
is concerned. Non-compliance is grounded in the
Rafaeli decision in
2020 which now moves from the unequal treatment of criminal and civil
forfeitures to the unequal treatment of those in public auction and those
in federal contracts.
For those properties like the $8.41 one there is more incentive to
foreclosure for the windfall that was pre-Rafaeli. But post-Rafaeli, the
federal contracts are more lucrative because the windfall comes from
the federal government’s matching funds to “uncap” foreclosed
proeperty then raise the property taxes on the entire neighborhood! See
Oosting article in the Detroit News, March 4, 2019 mentioning why the
voters aspect shows why the amendment in Petition Footnote 1 is
attractive to the state, the county and the local units of government they don’t want to ask the voters to “uncap” tax increases > For
contrast, what happened in Nashville TN after COVID-19 revenue
declines in 2020 raising property taxes 34% for lack.
That can’t happen in Michigan. So Nashville would actually use
retrocession where Michigan could not. Both are in the Sixth Circuit. It
is just a matter of time before both States move up through the courts
on different Constitutional grounds to the same plea for clarity from
this Court.)
To clarify the question presented, because the reversal in 2019
during 19-1290 made the words in the said question important. It was
because it is akin to pre-1929 use of credit to buy stock. In such a
scheme there is no vested risk in the “investment” and therefore more
risk is taken than one can afford to lose. The city Respondent began
with free money (using Petitioner’s house as an ATM effectively) used
in 2019 to get the property. Once had it used that property to get back
the money it had plus the matching federal funds at the expense of the

(1

first federal mortgage in 2007. It was to remove the Petitioner as both a
opposing counsel and as an opposing party in 19-1290. Obstruction of
justice? Seems so. An That federal contract harmed the first federal
mortgage in doing so.
That first federal mortgage “2007” in the Question Presented was
the “hazard Insurance” cause of action at trial on September 20, 2018.
When the invasion happened, August 29, 2019. That nexus (see Hand
quote above in Ward article) cause of action was enjoined in Knick with
Monroe, as discussed below. This is the reason for the Hand quote and
its related page in the cited article. It shows the complexity is beyond
ridiculous for anyone to navigate going forward. It must be addressed
by this Court to spare all future Debtors and citizens this endless debt
and its related litigation for naught. Not frivolous.
Petitioner’s unique circumstances should not be summarily
dismissed as freakishly inapplicable to review at this Court as if it
pertains to no one but her. It pertains to thousands, if not millions of
people. Because of the federal stake in the matter, plus how the federal
funds encourage this duplicitous debt collection to beyond tort(s), to the
level of unconstitutional, on a grand scale. Knick addresses precedent
when it encourages unlawful behavior as the Michigan GPTA did prior
to Rafaeli and still does by ignoring the explicit mutual comity between
Michigan and the bankruptcy court as well as the fact the federal
contracts are a caveat to the normal preclusive barriers to federal court.
HOW QUASI INREMimm IS FORCED INTO STATE AND
FEDERAL COURT IN PERIL OF A PRECLUSION TRAP
In fact, the San Remo “preclusion trap” addressed in Knick shows
why going to state court first will not help the earnest non-bankruptcy
citizen either. This Petition seeks to finish where Monroe began and
where Fair Assessment and Knick cited Monroe to provide a clear path
to the federal court as there is no reason given these federal contracts
are not known until after the foreclosure to allow those who have
suffered either the “state of unconstitutional condition” and/or a
deprivation of civil rights to get relief in the federal court so as to get
justice quickly and in reality as opposed to more ridiculous measures
that neither make sense to a novice or an expert alike. It seems that
given Levin and other cases the Sixth Circuit seems scared to do the

3UD

right thing fearing reversal and summarily dismisses the many cases
somewhat like this one who lacked bankruptcy as a context, on comity
alone, without realizing that invasions were not a form of tax collection.
Somehow, they got the wrong legal memorandum and are in need
of an update that makes justice simple and dissuades unlawful behavior
by taking the litigation out of the hands of the beneficiaries of the
federal funding at the expense of Constitutional protections. Petitioner
ventures to say the 2020 Census will reflect the massive damage by
these schemes since the Great Recession. As a great tragedy no less
consequential than many other such events in history in which decent
hardworking honest citizens found themselves on the wrong side of
fortune. What happened to Petitioner could happen to anyone.
Petitioner’s case is the perfect vehicle to explore all the facets of
the “paths not taken” by Respondents and the courts alike, since 2013.
There are others from Petitioner’s cases, still in court and fighting the
“good fight” as well. They are distinguishable, primarily by bankruptcy.
Also, by the relief available since Rafaeli, LLC was decided July 17,
2020. Therefore, it would be manifest injustice not to reverse and
remand this case back to the Sixth Circuit, to at minimum get it to call
the trial September 20, 2018 [see about 200 page in Transcripts] merely
an “evidentiary hearing,” etc..
Levin provides context upon which to anchor the reason why this
case could finish where it left off, in a unique way. In Levin was Fair
Assessment Fair Assessment cites Monroe, as does Knick. Together
they paved a path to federal court for those who have no relief in the
state Court of Claims, due to the federal contract circumventing the
public auction. For those whose property is not publicly auctioned, there
is no relief at the state level. Also, the invasion “nexus” (see Hand quote
above) is also tied to both landmark cases cited in different ways!
1) Knick provides the context for finishing where it left off in
terms of applying Monroe specifically to self-help evictions and
invasions by federal contracts as 42 U.S.C. § 1983 even if it was
an independent action from the underlying debt years earlier
but through the mechanisms available that ROFR used to
circumvent the public auction to avoid paying the excess equity.

2) Rafaeli addresses the relief not available to Petitioner due to
the federal contract as opposed to public auction, etc.
Appendix B regarding the dismissal of two litigants will be
discussed further if this Petition was granted. It is the State Attorney
General himself that also created harm in another adversary case the
underlying bankruptcy. In other words, he sacrificed one debt to gain
another. The principle res judicata applied more widely in Michigan;
which addresses the skipped year of 2018, with its additional bar being
the statute of limitation. Another layer to the onion in this Petition.
While Petitioner lived the facts to know them as true, she learned
the relevant law in context along the way. She learned enough to know
that the Respondents avoided candor (and worse) shows Petitioner’s
case was strong. Her causes of action are both correct and ripe for
review. Rare is such a set of circumstance to test the Constitution from
so many perspectives at once.
In the dual classification of the debt created a void in justice injustice - because it required two courts to get to the same conclusion,
both pointed to the other court for relief. Rather than one court to be
appealed, if wrong there were two. Both blocking appeal different ways,
it was nevertheless the same way, in terms of money. One called it a
“bond” and the other called certified that it could not proceed to appeal
IFP because it was frivolous. Neither was correct. Plus, there is nothing
frivolous about bankruptcy. Nothing. This creates a new dynamic that a
pro se is especially ill-equipped to endure, especially for a long period of
time. Effectively, it doubles the cost of litigation because of the
duplicate documents, days off work to attend hearings, trials, and
postage among other costs to get there for those who do not drive in
addition to safety concerns.

9-A

Adding inherent poverty due to Chapter 7 bankruptcy to the mix,
of facts and law, there is special peril in the pursuit of justice for many
similarly situated as the Petitioner. She is one of many like her with no
voice. Imagine the person in Petitioner’s city filled with people in a
small two-mile square area that speaks about 40 languages. Many of
them would never understand the nuances in Hand’s quotes. Only
someone who has a strong grasp of English could begin to understand
such fluid concepts as causes of action that now, with the Twombly and
Iqbal tools, can manipulate not only the property party to be sued, but
the causes of action that require context to bullet-proof a complaint to
the level of Fort Knox. It is impossible. No one can do that. If nothing
else this could finish what Knick began in that context- causes of action
that are effectively civil rights are insulated from being rejected by the
federal courts as invasion a real happening in more than one case
rejected by the federal court that results in more of the same over time.
More importantly, as an additional reason to grant this petition, is the
fact that some that have defrauded the federal government in either the
mortgage loan industry or the Medicare, etc. have simply moved into
real estate because they are willing to invade as a method of tax
collection when no taxes are even owed at that juncture. There is a
serious federal component to not only what is happening but why it is
happening to begin with.
This is particularly dire because the pursuit of justice is secondary
to survival. The last vestige of survival for most is their home. The
Founders never envisioned water billing - let alone fraudulent water
billing, that theoretically like snake oil could have been done in 1776,
just as it was done to the Petitioner who was getting no water to base
the debt upon since 2013 - being a backdoor method to deprive citizen
from his or her shelter. Since water was free in that era, it was
inconceivable it would lead to foreclosure. Even Debtor’s prison was not
yet eliminated. So jail would have been the price for debt that would
have been at least shelter albeit at the expense of freedom.
Conversely, in the modern era it is water that is the de facto way
to deprive citizens of life, liberty and the pursuit of happiness en
masse.23 In 2020, it is neither freedom (pandemic shutdowns) nor
23 Example, the infamous Flint Water Crisis

R3

shelter (post*moratoriums). For this reason, this Petitioner pleas that
this case is the best vehicle to test the void, by looking at it through the
lens of the poor, bankrupt, foreclosed pro se. One that is fighting for
justice (against all odds). That, in of itself, says there will be few like
her in the future who could endure such a path to this Court. If anytime
soon.
Petitioner is fortunate however, to be able to understand and
articulate the law well enough that she is in her home today. Perhaps
COVID-19 helped this Petition. It has not only become more possible,
but also that her context is better understood with, for instance, federal
and state moratoriums commanding that evictions, foreclosures and
water shutoffs be stopped for the public health. In the past, thousands,
perhaps millions, suffered under the crushing weight of hopelessness
that is now gradually improving, with the pandemic, ironically.
Recently, two landmark cases relevant to this Petition were Knick
v. Township of Scott, Pennsylvania in this Court and Rafaeli, LLC v.
__ in the Michigan Supreme Court. But the Petitioner wants to
address a hidden reason why these cases are relevant this is
counterintuitive- fraud. The federal contracts encourage mass
foreclosures and mass evictions just to qualify for their federal funding.
This is coupled with a scheme in which there is immediate payment,
without procedural due process, for the lien. The local unit of
government gets paid. No opportunity to adjudicate the fraud itself for
the property owner, that is. This is, with other things, such as double
taxation. It is more than just water bills “gone wild.” There were other
things at trial September 20, 2018 under oath with the city
Respondent’s witness corroborating the Petitioner’s questions of fact
beyond the water billing. Prior to the trial the city admitted to the
bankruptcy — in order to get in to mediation after defaulting - that it
had shut off the water in 2013 and never turned it back on afterwards.
There was no dispute. The law then was based on whether it was
personal debt, hen debt, or both and fraud. Yet the Opinion in that trial
makes no sense given the discharge was may 31, 2017 about a year and
a half earlier.

&1/

In Michigan, when retrocession happens under the stateappointed Emergency Financial Manager appointed to the local
government, the Constitution is tossed out of the window and into the
trash. Now before this Court is the case of all cases. It has it all. It has
the fraud. It has the double taxation. The resulting foreclosure and
bankruptcy. It has the courts refusing to apply the facts to the law. And
it has the judges advocating for the defense! Or being controlled by thenlawyers with credentials tied the courts rulemaking and the trustee at
once.
What stands out most is the dual classification of the debt. It
creates so many of the problems which are eventually adjudicated, then
appealed. This dual classification is what is known as either a violation
of “choice of law” in choosing one classification or another. Or it is
known as a quasi in rem debt. The significance of the latter can’t be
overstated.
Delaware (see Pontes uncharted territory nationally on TIA
exception in bankruptcy and also see Sommer article and also
mendleson article as to leaving in Umbo the correct interpretation of
comity, and makes this easier to understand two ways. The action in the property rather than the owner of the property
takes away the voice of the owner who has vested rights. A bystander to
the property being taken from them in court, is that owner is in reality
a third-party to the in rem action against the property it owns [see
Hibbs in Levin, as it addresses third-party exceptions to TIA; what
Petitioner was as an objector pursuant to MCL §211.78(k)(2)(a-f)]. For
such decisions Delaware relies on default to justify the seizure.24
In Michigan it is a bit different. The appearance of substantive
due process takes place at a “show cause” hearing. However, that has
the connotation, being it was decided prior to the objection hearing. It
was a forgone conclusion more obviously in 2010 when those facing
foreclosure were corralled in to Cobo Hall in Detroit and no one was
able to object at all. Then a half-hearted symbolic gesture was contrived
to give some but not all those would-be objectors that option in a
meaningful manner. To reduce the sheer volume of people who wanted
1.

24 See articles by Sommer and by Ward, and also see Appendices G & O § 2

to object, the various payment plans diverted most away for the show
cause option but were futile nevertheless for several reasons.
In other words, the owner is in “contempt of court’ as a third-party
on an in rem action that had not been decided, but is deemed decided,
for the purpose of the foreclosure. To be truly in “contempt of court” in
that scenario one would be considered in “contempt of court” even
though the law required it to be in contempt pursuant to MCL
§211.78(k)(2) just to object at the show cause hearing, In fusing
opposites, the injustice is inevitable. It is no different that the San
Remo “preclusion trap” in Knick - another Catch-22, which would
follow the objection hearing if it failed because by the logic of TIA one
must go through the state courts to this Court rather than the lower
federal courts. With Rafaeli, saving some of that trouble in its ability to
clarify where the Michigan Supreme Court stands on the situation, it
was opined in the dissent that such as case as this one would be the
result of the very control that the county has over the sale value. There
the basis of federal jurisdiction is not so much the elusive tax situation
but the federal contract that affects the sale and therefore affects the
relief as well. What sets Petitioner apart in this regard is two-fold'
1) Bankruptcy exemptions are preserved by bankruptcy and non­
bankruptcy alike in mutual explicit comity between Michigan
and the federal courts, (see 11 U.S.C. § 522(b)(2&3) in mutual
explicit comity and also “choice of law” as to vested exemptions.
2) When the county treasurer “walked in the shoes” of the trustee
in March 2017 to foreclose during both the federal and state
stays it must provide the exemptions as a minimum, not
subject to the statutory formula it uses in non-bankruptcy
foreclosures regardless of whether it was publicly auctioned or
was federally contracted or whether it was reversed once done.
Because the harm (tort) was not the reversal itself but the
harm to the adversary proceeding’s complaint that was the
problem that was not known to the Petitioner until later. Knick
shows that the reversal does not correct the taking. So the city
first and the county second had takings with the near last
taking being the invasion on August 29, 2019 followed by more
takings.

£4

2. Normally that would be the fatal juncture at which there is no hope.
Then bankruptcy, in explicit mutual comity with Michigan and other
States, is the only salvation that could possibly get justice.
The bankruptcy court has a dual role in that it can address the
objections to the “unsecured” disputed scheduled debt itself as well as
address the foreclosure (“secured” disputed scheduled debt). In fact, it
can discharge all the parts of the debt that are punitive in nature,
interest, penalties, and all other contingent parts of the principle debt
that does not survive the bankruptcy’s permanent discharge, which was
granted on May 31, 2017.
However, the problem for the Debtor, it was when that process is
interrupted by the foreclosure during the stay, March 2017. This is
when the county treasurer through two lawyers in two courts — state
and federal — in contradiction foreclosed. Both lawyers got both judges
to ignore the Debtor at once, unbeknownst to her until several months
later and too late to fix it. When this happened, there was a problem
with the judiciary branch itself, in its unwillingness to apply the mutual
explicit comity available to it, to act accordingly.
Another Delaware example is In Re Pontes (“Pontes”) offers some
context in that it addresses TIA and in doing so also offers these
insightsa)
“This is not a well-fit path. No case in the First Circuit and
few courts anywhere have confronted the question presented here.”
Uses 11 U.S.C. § 505 to explain TIA as being the “bankruptcy
exception.”
b)
“use the bankruptcy court’s adversary proceeding vehicle to
‘federalize’ a question that otherwise would be exclusively an issue of
state law. A taxpayer cannot challenge a state tax for the first time in
federal court when a state provides a process to challenge the tax...”
And this is the crux of the question presented in this Petition.
It was blocked on March 22, 2017 from being addressed and there
was no place to address it except in bankruptcy court. So this overcomes
TIA, on its face, by the transcript alone of the March 22, 2017, show
cause hearing, in which an objection was filed and served on the county
treasurer on time. Also where fraud was in the Michigan statute MLC
§211.78(k)(2)(a-f) to provide that adjudication after three long years of

27

waiting only to wait another year the “speedy” prong of TIA made that
yet another exception. After all, the debt grew and grew during the
years held in abeyance, without any way to force the adjudication, at
either court. It grew until mid-2019, just as Knick was decided, from
2013.
This is the overview of the Petitioner’s plight that makes this
Petition worthy with many details in the Record and additional
landmark cases to provide context for the granting of the Petition.
As a last point to make, The right to appeal is in Rule 8003
(28 U.S.C. §§ 158(a)(l & 2) from the bankruptcy court to the district
court an Article II court) and it seems to petitioner that the denial was
based upon poverty alone rather than the merits of the empty victory
she had at the trial deemed “evidentiary hearing” so as to diminish its
being taken seriously on appeal. Petitioner questions if she was told it
was a trial and was actually only an evidentiary hearing. If that is true,
unmerciful injustice has happened to her in way unimaginable prior to
19-1290. Is justice only there for those that can afford to pay? COVID19 made many unable to pay as is the case with the Petitioner.
Petitioner puts forth her best reasons for granting the Petition,
but one other possible request may please this Court. With 20-1773
being briefed currently, in the Sixth Circuit due to the invasion,
perhaps this case could be held in abeyance, if granted, to enjoin both if
that appeal takes comity as its basis for denying relief. If that is the
case, Petitioner’s only concern is the pending eviction which after the
recent federal moratorium will expire December 31, 2020, thus making
her potentially homeless. Naturally, Petitioner does not want be pushy,
but if she is homeless her ability to prosecute the case is in peril. If any
injunction from this court can make it possible to prevent that, then it
would be welcome indeed. If comity is the reason why it can’t, then it
adds to Petitioner’s point overall that comity is in the way of justice in
some cases stemming retrocession.

CONCLUSION

The petition for a writ of certiorari should be granted.

Respectfully submitted,

Date:

q-xa-XO

£-1

